March 31, 2011

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Allegations of Inaccurate Time and Attendance Records
         (Report Number HR-AR-11-001)

This report presents the results of our audit of allegations of inaccurate time and
attendance records (Project Number 10YG017HR000). Our objective was to assess
whether the U.S. Postal Service has adequate controls to ensure the accuracy of
employees’ workhours. We are conducting this audit as a result of a congressional
request and other inquiries we received regarding postal locations in Salem, OR;
Dover, NH; Kansas City, MO; Gahanna, OH; and Gastonia, NC. This audit addresses
financial and operational risks. See Appendix A for additional information about this
audit.

The Eagan Information Technology and Accounting Service Center (IT/ASC) supports
the Postal Service’s payroll system and processes the employee payroll. The Postal
Service uses the Time and Attendance Collection System (TACS) to collect time and
attendance information. TACS transmits that data to the Host Computing Service
Mainframe in Eagan, MN, for payment processing. We received allegations that
supervisors were altering time and attendance records and employees were not
receiving the pay they were entitled to.

Conclusion

Management controls over time and attendance at the locations included in our audit
were not adequate to ensure employees’ workhours were reported accurately. As a
result, we could not determine with certainty the reasons supervisors altered employee
time and attendance records. Specifically, we found that Postal Service supervisors did
not complete the required Postal Service (PS) Form 1017-A, Time Disallowance
Record, or PS Form 3971, Request for or Notification of Absence, from the Enterprise
Resource Management System (eRMS)1. We also found questionable deletions2 of

1
 Unscheduled leave is called into the eRMS, which is directly linked to TACS. Supervisors must print out
PS Form 3971 from eRMS for signatures.
Allegations of Inaccurate                                                                             HR-AR-11-001
 Time and Attendance Records


clock rings by supervisors in the Dover, NH; Gastonia, NC; and Parkville, MO Post
Offices. In addition, supervisors did not follow procedures for documenting employees’
out-of-schedule changes3 in TACS. Furthermore, we found supervisors at the Parkville,
MO Post Office improperly charged safety talks and informational meetings to operation
code 782, Training.

Supervisors not Completing PS Form 1017-A

In Gastonia, NC; Dover, NH; and Gahanna, OH, we found that supervisors did not
complete PS Forms 1017-A as required. In addition, there was no requirement for
employees to sign the form, indicating that they have been notified of disallowed time.
At the Gastonia and Dover locations, the managers stated that completing
PS Form 1017-A was not a priority. At the Gahanna location, the manager stated that
supervisors forgot to print out the forms. Postal Service Handbook F-214 states that
PS Form 1017-A serves as a permanent and cumulative record of disallowed time. The
supervisor must prepare a PS Form 1017-A when disallowing employee time. Because
supervisors did not complete the required documentation, we were not able to
determine with certainty the reasons for disallowed time. At the Dover, NH Main Post
Office (MPO) employees were awarded overtime, penalty overtime, and punitive
damages because supervisors did not maintain PS Forms 1017-A. See Appendix B for
our detailed analysis of this topic.

Leave Documentation

Postal Service supervisors at the Gastonia, NC; Salem, OR Main; Salem, OR Vista; and
Carol Stream, IL Post Offices did not adhere to TACS management procedures.
Specifically, supervisors did not consistently print PS Forms 3971 from the eRMS and
ensure they obtained both supervisor and employee signatures as required. This
occurred because Postal Service officials at locations we visited stated that either they
did not have a process in place to ensure the form was printed, other duties took priority
or the forms were misfiled.

The Employee Labor Relations Manual (ELM)5 states that a supervisor will provide a PS
Form 3971 to the employee upon his or her return to duty and the supervisor must
approve or disapprove the leave. In addition, Handbook F-216 states that supervisors
are responsible for ensuring that they complete a PS Form 3791 for every period of

2
  Questionable deletions include deleting employees’ clock rings when the deleted workhours exceeded the 8-hour
scheduled tour, including the 5-minute leeway for congestion at the time clock; supervisors correcting employee clock
rings to an 8-hour day because, according to the supervisor, the employee either swiped too early to avoid overtime
or forgot and swiped too late: and adjusting employees' clock rings to meet Delivery Operations Information Systems
(DOIS) reports or established hours for various operations.
3
  An eligible full-time bargaining unit employee receives out-of-schedule premium pay for time worked outside of, and
instead of, their regularly scheduled workday or work week when the employee is working on a temporary schedule
at the request of management.
4
  Handbook F-21, Time and Attendance, Section 146.25.
5
  ELM, Section 512.412.
6
  Handbook F-21, Sections 323.1and 323.2.




                                                          2
Allegations of Inaccurate                                                                               HR-AR-11-001
 Time and Attendance Records


annual leave taken. In emergency situations, employees must notify appropriate
authorities as soon as possible as to the emergency and the expected duration of their
absence. As soon as possible after returning to duty the employee must submit a
PS Form 3971 and explain the reason for the emergency to their supervisor. See
Appendix B for our detailed analysis of this topic.

Deletion of Clock Rings by Supervisors

In Gastonia NC; Dover, NH; and Parkville, MO, controls over deletion of employee clock
rings need improvement. We noted that employee clock rings were deleted to conform
to Delivery Operations Information Systems DOIS reports or established hour limits for
operation codes 769 and 241.7 In addition, supervisors deleted any employee time over
the 5-minute leeway part- and full-time regular employees are allowed.8 Some
supervisors stated they deleted the rings because they were incorrect. In other cases, a
manager stated that she adjusted the clock rings to conform to expectations and some
supervisors did not provide reasons for the deletions. Handbook F-21 states that “If an
employee works in an “overtime” status by exceeding the scheduled tour hours by more
than 5 minutes, they are paid for their actual clock time, unless the time is disallowed.”9
When management does not follow policies and procedures over time and attendance
the Postal Service has an increased risk for grievances. In addition, in some cases the
Postal Service may have incorrectly paid employees paid. See Appendix B for our
detailed analysis of this topic.

We recommend the vice president, Controller:

1. Establish and implement controls in the Time and Attendance Collection System to
   document supervisors’ justification of changes to employees' time.

We recommend the vice president, Delivery and Post Office Operations:

2. Issue supplemental guidance emphasizing the importance of completing Postal
   Service Form 1017-A, Time Disallowance Record, and PS Form 3971, Request for
   or Notification of Absence.

3. Establish a review and approval process to ensure time disallowances are
   appropriate and documented as required.

4. Establish periodic monitoring of clock ring deletions to ensure employee workhours
   are recorded accurately.


7
  Code 769 is generally the distribution of mail to post office boxes or detached box units. Code 241 is generally the
distribution and spreading of mail and sorted bundles.
8
  Handbook F-21, Section 145.12, says a deviation may be allowed from the schedule time for each clock ring of up
to .08 hour (5 minutes); however, part-time flexible, casual, and temporary employees are paid based on their actual
recorded time.
9
  Handbook F-21, Section 146.22.




                                                           3
Allegations of Inaccurate                                                     HR-AR-11-001
 Time and Attendance Records


Out-of-Schedule

Supervisors at the Salem, OR Vista Station; Salem, OR MPO; and Salem, OR
Hollywood Annex did not follow established procedures to document employees’
out-of-schedule changes in TACS. Specifically, supervisors manually entered the
out-of-schedule code and calculated the number of out-of-schedule hours versus letting
TACS calculate the hours. The Postal Service’s TACS Timecard User Guide states that
if the out-of-schedule block is checked, an employee will automatically receive
out-of-schedule hours. Supervisors stated that they did not have sufficient TACS
training and did not understand the effects of changes they made in the TACS. Postal
Service employees were improperly paid and there is no assurance that supervisors
understand how to properly use TACS.

We recommend the vice president, Delivery and Post Office Operations:

5. Provide periodic refresher training to managers, postmasters, supervisors, and
   acting supervisors on the Time and Attendance Collection System.

Supervisors Improperly Charged Safety Talks to Training Code

Parkville, MO Post Office officials improperly charged safety and informational meetings
to operation code 782, Training. This occurred because the manager and supervisor
stated they thought it was appropriate to charge these meetings to training.
Handbook M-3210 states the Postal Service does not consider informal operational
meetings (such as safety talks or stand-up sessions) conducted on the workroom floor
to be meeting time and employees should charge those hours to “operations on the
workroom floor.” As a result, the National Association of Letter Carriers (NALC) filed a
class action grievance for Kansas City carriers alleging that supervisors improperly
charged employees' time to code 782 when they conducted safety talks and
informational meetings, thereby reducing employees’ "productive time." See Appendix B
for our detailed analysis of this topic.

We recommend the vice president, Delivery and Post Office Operations:

      6. Issue supplemental guidance to supervisors and managers regarding the
         appropriate use of operation codes associated with recording safety talks and
         informational meetings in the Time and Attendance Collection System.

Management’s Comments

Management agreed with all of the recommendations, stating with regard to
recommendation 1, they believe the proper completion of PS Form 1017-A is an
adequate control for providing a permanent and cumulative record of disallowed time for

10
     Handbook M-32, Appendix A-2, March 2009.




                                                4
Allegations of Inaccurate                                                     HR-AR-11-001
 Time and Attendance Records


each employee. Management stated the Payroll Manager will investigate the costs
associated with creating a TACS-based electronic record of reasons for clock ring
changes by January 2012, and if it is not cost prohibitive, the system could be used to
augment and review proper usage of PS Form 1017-A.

Regarding recommendations 2, 5, and 6 management stated they will develop a training
webinar by May 31, 2011, which they will use in the future to ensure managers exercise
adequate control over time and attendance matters. Lastly, in response to
recommendations 3 and 4, management stated that they will collaborate with Finance
and Payroll to develop a review process for installation heads and/or their delegates to
ensure time disallowances are appropriately applied and documented; and to monitor
clock ring deletions and investigate issues related to timekeeping to ensure employee
work hours are recorded accurately. Management expects to implement corrective
actions for recommendations 3 and 4 by July 1, 2011. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

Overall, the OIG considers management’s comments responsive to the
recommendations, and planned corrective actions should resolve the issues identified in
the report. With regard to recommendation 1, we do not agree that completing PS Form
1017-A is an adequate control to ensure supervisors document justifications for
changes to employee’s time because many supervisors did not complete the forms as
required. As a result, we were unable to determine the reasons for changes to
employees time. However, we do believe that management’s commitment to research
the feasibility of making the necessary programming changes in TACS meets the intent
of the recommendation.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            5
Allegations of Inaccurate                                                  HR-AR-11-001
 Time and Attendance Records


 
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

       E-Signed by Mark Duda
    VERIFY authenticity with e-Sign




Mark W. Duda
Deputy Assistant Inspector General
 for Operations

Attachments

cc: Paul C. Sullivan
    Larry C. Cruse
    Ronald D. Langevin Jr.
    Corporate Audit and Response Management




                                           6
Allegations of Inaccurate                                                                               HR-AR-11-001
 Time and Attendance Records


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service processes payroll for more than 500,000 employees. To handle this
monumental task, it gathers time and attendance information through TACS, which then
transmits the data to the mainframe run by the Eagan, MN IT/ASC for payment
processing.

The information in TACS is entered manually or electronically. Normally, employees
record their time electronically through an Electronic Badge Reader. TACS then polls
the information and displays the polled clock rings11 in its Clock Ring Editor module. The
TACS administrator gives access only to users who require the ability to add, change or
delete time and attendance records.

Supervisors responsible for their employees’ time and attendance use TACS to enter,
adjust, authorize or monitor employee schedules and changes, leave, higher level
authorization, overtime, and pay adjustments. Supervisors can also delete or edit time
and attendance information once it has been entered. Anytime a record is changed,
TACS records the employee identification number of the individual who changed it. In
addition, when a supervisor observes, or has reason to know, that an employee did not
work while "on the clock," the supervisor may disallow any of that time the employee
recorded. However, supervisors must document the basis for any such disallowance on
PS Form 1017-A. Supervisors must also complete PS Forms 1017-B, Unauthorized
Overtime Record for employees who have unauthorized overtime.

The Postal Service OIG received a congressional request from an Oregon
Congressman on behalf of his constituent, the vice president of the Salem Associated
Postal Workers Union Local 604. The union vice president alleged that the same or
similar revelations produced by investigations in Manchester, NH, are also happening in
Oakland, CA, and Salem, OR, and that the problem is widespread and systemic within
the Postal Service. He requested the OIG audit of time and attendance procedures in
Salem, OR to determine if workers are being paid incorrectly due to supervisors
manipulating timecards, built-in flaws in TACS, or the fact that TACS was not
administered properly.

We interviewed the union vice president during the audit and he stated that there were
two concerns: recording of employees’ out-of-schedule time and adherence to
employees’ bid schedules. In addition, there was a congressional request from the
president of the New Hampshire NALC Local 44 alleging that supervisors were
improperly deleting time from carriers, improperly moving codes, and deleting “no lunch”
designations. The union president estimated there were approximately 30 violations
found during the last year (2009) at the Dover, NH branch.

11
  A clock ring is the recorded time by ring type; begin tour end tour, out to lunch, in from lunch and move, which
records time spent on various work transactions.




                                                           7
Allegations of Inaccurate                                                     HR-AR-11-001
 Time and Attendance Records



We received additional congressional requests from a Missouri Senator on behalf of her
constituent, the president of the Kansas City NALC Branch 30 and an Ohio Senator on
behalf of his constituent, a Postal Service employee. In Kansas City, there were
concerns that various post offices in the Kansas City area were changing employees’
clock rings and changing office and street time to training and carrier miscellaneous
duties. In Ohio, an employee was concerned about harassment and retribution as a
result of a grievance alleging manipulation of employee time.

In 2009, the OIG Office of Investigations (OI) received information from New Hampshire
Congresspersons and the NALC regarding alleged time and attendance fraud by Postal
Service managers at three post offices and two stations in New Hampshire. OI
investigations disclosed instances where either a postmaster or supervisor made entries
into TACS which apparently deprived employees of paid time or failure to maintain
proper documentation for disallowance of employee time.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess whether the Postal Service has adequate controls to
ensure the accuracy of employees’ workhours.

To accomplish our objective, we reviewed the TACS Employee Everything Reports for:

      Calendar year (CY) 2008 (pay periods1-4) and CYs 2009 and 2010 (pay periods
       1-10) for the Salem MPO;

      CYs 2009 and 2010 (pay period 1-6, week 2) for the Dover MPO; and

      CYs 2009 and 2010 (pay periods 1-14) for the Gastonia Post Office for deletions
       and disallowances made by supervisors to employees’ workhours.

We also reviewed CYs 2008 (pay period 1 through pay period 8, week 1), 2009, and
2010 (pay periods 4-10) Employee Everything reports for the Salem Vista Station and
statistically sampled 391 clock rings (196 deletions and 195 all clock rings) for Gahanna
Carrier Annex and 377 clock ring (196 deletions and 181 all clock rings) for Parkville
Post Office for CYs 2009 and 2010 (pay periods 1-20). In addition, at both locations, we
reviewed the disallowances of employee workhours for CYs 2009 and 2010 (pay
periods 1-20).

We also reviewed a sample of CY 2010 employee leave requests for the Salem, OR
MPO; the Salem, OR Vista Station Post Office; the Carol Stream, IL Processing and
Distribution Center; and the Gastonia, NC Post Office.




                                            8
Allegations of Inaccurate                                                    HR-AR-11-001
 Time and Attendance Records


We received allegations of misconduct at the Salem, OR MPO; the Salem, OR Vista
Station Post Office; the Dover, NH MPO; the Gahanna, OH Carrier Annex; and the
Parkville, MO Post Office. To validate the allegations of misconduct, we interviewed:

   The president of the New Hampshire NALC Local 44;
   The vice president of the Salem Associated Postal Workers Union Local 604;
   The Salem-Vista Station Post Office manager;
   The Salem MPO postmaster and supervisor;
   The Gastonia Post Office manager;
   The Dover MPO postmaster;
   The president of the Columbus Ohio NALC Local 78; and
   The president of the Kansas City, MO NALC Branch 30.

We discussed overtime and deletion of clock rings; changes to employees’ clock rings;
completion of PS Forms 1017, 1017-A, and 1017-B; schedules changes; and leave
documentation.

We also interviewed Postal Service managers and supervisors to determine cause(s)
for issues identified based on our review of time and attendance records. We
interviewed a sample of employees at the Gastonia, Dover, Parkville Post Offices; and
the Gahanna Carrier Annex to identify any issues with time and attendance. In addition,
we interviewed area TACS managers to discuss monitoring of TACS data.

We reviewed Handbook F-21 and the ELM to determine Postal Service supervisors’
responsibilities related to time and attendance. We also reviewed and evaluated
OIG Hotline complaints related to time and attendance. In addition, we hosted a blog on
the OIG’s external website to gather public opinion about issues with time and
attendance records.

We conducted this performance audit from March 2010 through February 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective(s). We discussed our
observations and conclusions with management on January 18, 2011, and included
their comments where appropriate.




                                            9
     Allegations of Inaccurate                                                             HR-AR-11-001
      Time and Attendance Records



     PRIOR AUDIT COVERAGE

                    Report          Final Report    Monetary
 Report Title                                                                  Report Results
                   Number               Date         Impact
Function 4       MS-AR-10-002        4/26/2010     $79.6 million   The report stated that management
Overtime Hours                                                     should strengthen time and attendance
                                                                   procedures to reduce Function 4
                                                                   unauthorized overtime costs. Some
                                                                   Function 4 employees clocked in before
                                                                   and clocked out after their assigned
                                                                   workhours, resulting in 1.2 million and
                                                                   965,000 unauthorized overtime workhours
                                                                   for FYs 2008 and 2009, respectively. In
                                                                   addition, the report stated preventing
                                                                   employees from clocking in before and
                                                                   clocking out after their assigned
                                                                   workhours is a more effective and cost
                                                                   efficient control mechanism than detecting
                                                                   unauthorized workhours after they occur.
                                                                   Management disagreed with the finding
                                                                   and recommendation to implement an
                                                                   automated solution to prevent employees
                                                                   from clocking in before and clocking out
                                                                   after their assigned scheduled tours of
                                                                   duty without supervisory approval.
Control over     CRR-AR-09-          1/23/2009      $7.2 million   The report stated that controls over
Supervisor       002                                               manual processing of supervisors’ leave
Leave                                                              were insufficient to ensure management
                                                                   approved the leave, recorded it in TACS,
                                                                   and appropriately charged it to the
                                                                   supervisor’s leave balance. The report
                                                                   stated management did not put supervisor
                                                                   leave into TACS for 46 out of 124 (or
                                                                   37 percent) of the In-Office Cost
                                                                   System/TACS discrepancies noted. In
                                                                   addition, for 24 of the 46 exceptions,
                                                                   leave slips were not on file, while in the
                                                                   other 22 exceptions cases, leave slips
                                                                   were on file but management did not enter
                                                                   the leave into TACS. Management agreed
                                                                   with the findings and recommendations.




                                                   10
     Allegations of Inaccurate                                                         HR-AR-11-001
      Time and Attendance Records


                     Report         Final Report   Monetary
 Report Title                                                              Report Results
                    Number              Date        Impact
Application      IS-AR-08-014        8/14/2008        N/A     The report found that the Postal Service
Control Review                                                should strengthen its least privilege
of Time and                                                   controls, access controls, and security of
Attendance                                                    sensitive information. The report also
Collection                                                    indicated that TACS has sufficient
System                                                        application controls in place to ensure
                                                              automated clock rings entered into the
                                                              application are accurately accepted and
                                                              processed. The Employee Everything
                                                              Report was operating as intended and
                                                              accurately reported transaction results.
                                                              The scope did not include manual controls
                                                              and supervisory responsibilities related to
                                                              clock rings.




                                                   11
Allegations of Inaccurate                                                     HR-AR-11-001
 Time and Attendance Records


                           APPENDIX B: DETAILED ANALYSIS

Supervisors not Completing PS Form 1017-A

At the Salem, OR MPO and the Salem, OR Vista Station, the managers were able to
provide the requested PS Forms 1017-A. However, supervisors at three post offices
(Gastonia, NC, Dover, NH, and Gahanna, OH) did not complete PS Form 1017-A as
required. In addition, there was no requirement for employees to sign the form to ensure
they were notified that their workhours were disallowed. Our review of the employee
everything reports from TACS revealed:

 At the Gastonia, NC Post Office there were a total of 43 “time disallowed” error
  messages. Twenty of these were supervisors’ deletions of employees’ entry of time.
  The remaining 23 were supervisors’ correction of their own entry of employees’ time.
  We requested copies of the 20 PS Forms 1017-A, but Postal Service officials did not
  provide any of the disallowed time records. Gastonia should have completed 20
  PS Forms 1017-A for CYs 2009 and 2010.

 At the Dover, NH Post Office there were a total of 14 “time disallowed” error
  messages. Six of these were supervisors’ deletions of employees’ entry of time. The
  remaining eight were supervisors’ correction of their own entry of employees’ time.
  We requested copies of the six PS Forms 1017-A, but Postal Service officials did not
  provide any of the disallowed time records. Dover should have completed six for
  CY 2009.

 At the Gahanna, OH Carrier Annex there were a total of 107 "time disallowed" error
  messages. Sixty-one of these were supervisors' deletions of employees' entry of time
  and the remaining 46 were supervisors' correction of their own entry of employees'
  time. We requested copies of 61 PS Forms 1017-A, but the Postal Service provided
  only 43 of the disallowed time records. Of the 43 PS Forms provided, 31 were
  incomplete. The incomplete forms did not include the reason the time was disallowed
  and the supervisor's initials. Supervisors in Gahanna should have completed 61
  PS Forms 1017-A — 33 for CY 2009 and 28 for CY 2010.

PS Form 1017-A can be printed from the TACS. In addition, TACS prompts supervisors
when they are disallowing time that they should complete a PS Form 1017-A. The form
includes the reason and the date the employee was notified. Managers and
postmasters are responsible for ensuring that supervisors follow time and attendance
policies. The managers and postmasters at the sites visited stated that completing the
form was not a priority. In addition, one manager stated that supervisors forgot to print
out the missing forms and they had problems with the TACS and could not print the
forms. As a result, the union can file a grievance and request the Postal Service pay
affected employees for disallowed time. Recently, a grievance filed at the Dover MPO
awarded employees overtime and penalty overtime pay totaling $712, in addition to a




                                           12
Allegations of Inaccurate                                                                            HR-AR-11-001
 Time and Attendance Records


punitive award of $6,250 ($250 each per employee), when the Postal Service could not
support disallowed time with PS Forms 1017-A.

Leave Documentation

Supervisors at the Gastonia, NC; Salem, OR Main; Salem, OR Vista Station; and Carol
Stream, IL, Post Offices did not consistently print out PS Forms 3971 from eRMS as
required and ensure that they and the employees signed the form. We reviewed leave
forms for selected random pay periods for 137 employees at the four locations and
found that 94 of the employees (or 68 percent) were missing PS Forms 3971 for leave
taken.

The supervisors at the offices we visited stated that either they had no process in place
to ensure the forms were printed, other duties took priority or the forms were misfiled.
The vice president of the Salem Associated Postal Workers Union Local 604 stated that
they recently filed a grievance because PS Forms 3971 were not signed.

Deletion of Clock Rings by Supervisors

Controls over the deletion of employee clock rings need improvement. We noted that
employee clock rings at Parkville, MO, were deleted to conform to DOIS reports or
established hour limits for various operations. In addition, at Dover, NH and
Gastonia, NC, supervisors deleted any employee time over the 5-minute leeway
allowed for part-time and full-time regular employees. Supervisors stated they deleted
the rings for a variety of reasons, including employees working at higher levels,
employees not swiping their badges at the correct time, and employees swiping their
begin time too early. In some cases supervisors provided no reason or stated that they
were adjusting the clock rings to conform to expectations. These changes resulted in
unsupported deletions of employees’ time and exposed the Postal Service to increased
risk for grievances. The following items describe examples of clock rings deletions:

    At the Dover, NH Post Office we noted a supervisor entered an end time of
     3:00 p.m. for a part-time flexible employee working at a higher level. The employee
     badge was then swiped at 3:30 p.m., 30 minutes after the time the supervisor
     entered. This resulted in the employee having two end times. The supervisor deleted
     the clock ring at 3:30 p.m., disallowing the 30 minutes of time. There is no support
     for this deletion of 30 minutes. The supervisor stated that he was not sure why the
     time was deleted. He further stated that because the employee was working at a
     higher level, he should have had a 1-hour lunch or should not have had overtime.12


12
  Handbook F-21, Section 421.224, states that if the employee’s permanent position is nonexempt and more than 50
percent of the actual workhours are spent in the exempt work, the employee is eligible for either overtime, personal
absence or another premium applicable to the assigned position in which the overtime service is performed or the
premium earned. In addition, Section 421.222 states that bargaining unit employees retain their permanent work
schedule when temporarily assigned to another position.




                                                         13
Allegations of Inaccurate                                                                             HR-AR-11-001
 Time and Attendance Records


     However, because the time was deleted, the employee was not paid for the 30
     minutes of overtime.

    A full-time regular employee swiped an end time of 5:45 p.m., which the supervisor
     deleted and re-entered at 5:39 p.m., thereby keeping the employee’s total daily
     hours to 8. The supervisor was not able to explain the deletion. If the employee had
     stayed until 5:45 p.m., they would have received overtime pay for 6 minutes and
     additional pay would have been granted unless a PS Form 1017-A was completed to
     disallow the time. Instead, the employee was underpaid and should have received
     overtime. The TACS did not flag this as disallowed time, but as a deleted clock ring.
     Therefore, the employee would not have been notified and it would not have shown
     up on the Disallowance Error Report, which postmasters and managers stated they
     reviewed. Most employees we interviewed stated that they would not notice
     deletions of time under 1 hour.

    An employee swiped out for lunch at 12:06 p.m. and in from lunch at 12:39 p.m. (for
     a total of 33 minutes) but the supervisor deleted the in lunch time and reentered the
     clock ring at 1:21 p.m., thereby deleting 42 minutes from total daily workhours. The
     postmaster stated she was not sure why the time was deleted. As a result, the
     employee received overtime pay of 8 minutes instead of 50 minutes. The
     disallowance of time error did not display, only the deleted clock ring did. We
     contacted the Integrated Business Systems Solution Center in Eagan regarding this
     issue and they are looking into why the error message “disallowed time” did not
     display in TACS. 13

    Another example is a part-time, flexible employee who had end time swipes at both
     5:15 p.m. and 5:16 p.m. Both were deleted and a supervisor made an entry end time
     of 4 p.m. Two end times creates a fatal error, allowing the supervisor to delete one
     clock ring. However, when both were deleted and an earlier time was entered, the
     time did not show up as disallowed. The supervisor did not keep the daily work
     schedule and therefore, he was not able to provide an explanation for this deletion.
     As a result, the employee was underpaid for 1 hour and 15 minutes.




13
  TACS was not properly flagging disallowed time, but identifying it as deleted. The integrated business systems
solution center has corrected the code in the calculation program to fix the problem. The solution was effective
September 15, 2010.




                                                         14
Allegations of Inaccurate                                                                             HR-AR-11-001
 Time and Attendance Records



   At Parkville, MO we noted nine deletions from our statistical sample of deleted clock
    rings that were employees’ swipes. The manager stated that they needed to correct
    the clock rings because they did not conform to DOIS reports and other established
    time limits for each operation. For example, swipes to operation codes 769, Station
    Branch Box Section and 241, F4 Allied Distribution, were deleted because only
    1 hour per day can be charged per clerk, despite employees stating they spent more
    time on this operation. In addition, changes were made based on the amount of time
    that could be charged to operation code 240, Manual Distribution Branch.

Out-of-Schedule

Supervisors did not follow procedures when documenting employees’ out-of-schedule14
status in TACS. In our discussion with the vice president of the Salem Associated
Postal Workers Union Local 604 he expressed concern that employees’
out- of-schedule time was not calculated correctly. We noted during the audit that
supervisors manually entered the out-of-schedule code and calculated the number of
hours that employees worked out-of-schedule in the clock ring editor. They also
checked the out-of-schedule box in TACS. Because supervisors manually calculated
out-of-schedule hours in the clock ring editor and checked the out-of-schedule box in
TACS, the system could not calculate the employee’s out-of-schedule premium hours. A
supervisor at the Hollywood Annex told us he checked with the district TACS manager
about entering the out-of-schedule and was told the correct way to enter
out-of-schedule in TACS was to check the out-of-schedule box and the system will
calculate the out-of-schedule hours.

In our interviews with supervisors, they stated they did not have sufficient TACS training
and did not understand the effects of changes they made in TACS. In addition,
managers stated they did not monitor other TACS error messages, such as “check out-
of-schedule premium” to ensure that supervisors correctly entered out-of-schedule time.

At the Salem, OR Vista Station we noted that out-of-schedule was manually entered
and incorrectly calculated. For example, an employee started 2.50 hours earlier than
base schedule. The out-of-schedule hours of 2.50 were manually entered and the
supervisor changed the base in TACS to out-of-schedule. However, the employee
worked 10 hours that day and TACS automatically calculated 2 hours of overtime, which
was an overpayment because the individual was already receiving out-of-schedule
pay.15




14
   Out-of-schedule is when an eligible full-time bargaining unit employee receives out-of-schedule premium pay for
time worked outside of, and instead of, their regularly scheduled workday or work week when the employee is
working on a temporary schedule at the request of management.
15
   Handbook F-21, Section 232.15, provides an example of out-of-schedule computation.




                                                         15
Allegations of Inaccurate                                                     HR-AR-11-001
 Time and Attendance Records


At the Salem, OR Hollywood Annex, we noted that one employee had 101 “check
out-of-schedule premium” error messages from 2009 through 2010 (pay period 1-14).
We looked at a sample of this employee’s clock rings for the 2010 pay periods and
determined that the supervisor incorrectly calculated out-of-schedule premium hours
and underpaid the employee by 9 hours. The supervisor stated that he entered the
out-of-schedule premium in the clock ring editor as well as checking the box in the
employee maintenance module.

Supervisors Improperly Changed Safety Talks To Training Code

At the Parkville, MO Post Office, we noted supervisors improperly charged safety talks
and informational meetings to operation code 782, Training. This occurred because the
manager and the supervisor stated they thought it was appropriate to charge these
meetings to training. There were a total of 310 entries for code 782 in CYs 2009 and
2010. According to a senior Postal Service official, 15 minutes or less is considered a
safety talk and more than15 minutes is considered training; however, there is no criteria
to support this statement. The NALC filed a class action grievance for Kansas City
Carriers that stated supervisors improperly charged employee’s time to operation code
782, for safety talks and informational meetings thereby reducing employees
“productive time”.

Blog Comments

We published an external blog on our OIG website seeking input from the public with
regard to any problems they have had with time and attendance records. We also
conducted a survey associated with the blog and respondents expressed a great deal of
frustration with supervisors as a result of this issue.




                                           16
Allegations of Inaccurate                                 HR-AR-11-001
 Time and Attendance Records


                      APPENDIX C: MANAGEMENT’S COMMENTS




                                     17
Allegations of Inaccurate           HR-AR-11-001
 Time and Attendance Records




                               18
Allegations of Inaccurate           HR-AR-11-001
 Time and Attendance Records




                               19
